WAIVER
SUPREME COURT OF THE UNITED STATES
No.

20-1572

Ramon D. Johnson, II

Novartis Pharmaceuticals Corporation, et

(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Novartis Pharmaceuticals Corporation

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

5/28/21

Date:

(Type or print) Name Matthew J. Malinowksi
0 Mr.
Firm

Hollingsworth LLP

Address

1350 I St NW

City & State PhAvvashington, DC
I

(202) 898-5860

0 Ms.

0 Mrs.

0 Miss

Zip 20005
Email mmalinowski@hollingsworthIlp.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Ramon D. Johnson, II
9502 Vallecito Pass
San Antonio, TX 78250
(734) 320-8834

HollingsworthLLP
Litigation Matters?

Matthew J. Malinowski
dir 202 898 5860
mmalinowski@hollingsworthIlp.com

May 28, 2021
VIA FEDERAL EXPRESS
Honorable Scott S. Harris, Clerk
Supreme Court of the United States
Attn: Clerk's Office
1 First Street, NE
Washington, D.C. 20543
Re:

Ramon D. Johnson, II v. Novartis Pharmaceuticals Corporation, et al.
Case No.: 20-1572
Petition for a writ of certiorari filed May 05, 2021

Dear Mr. Harris:
Because this case clearly does not warrant review by the Supreme Court, Respondent
Novartis Pharmaceuticals Corporation does not intend to respond to the petition for certiorari
unless requested to do so by the Court.
Sincerely,

Matthew J. Malinowski, Esq.
Encl: Waiver of Response

RECEIVED
JUN 2 - 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

1350 I Street, N.W. II Washington, DC 20005 II tel 202 898 5800 II www.hollingsworthIlp.com

